No. __________________

In the Supreme Court of the United States
October Term, 2021

RAMIRO MEDINA-OLIDEN, PETITIONER,
V.

UNITED STATES OF AMERICA
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner Ramiro Medina-Oliden, by and through his undersigned attorney, and pursuant to Rule 39.1, Supreme Court Rules, and Title 18,
United States Code, § 3006A(d)(7), respectfully moves this Honorable
Court for leave to proceed in forma pauperis, and for leave to file the attached Petition for Writ of Certiorari to the United States Court of Appeals
for the Fifth Circuit without prepayment of fees. Petitioner was represented by appointed counsel under the Criminal Justice Act of 1964, as
amended, in the district court and the court of appeals. Leave to proceed in
forma pauperis was never sought in any other court.

Respectfully submitted.

s/ Judy Fulmer Madewell
JUDY FULMER MADEWELL
First Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)
Counsel of Record for Petitioner
DATED: October 4, 2021.

